Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL



   Medicare Hospice Beneficiaries:
       Services and Eligibility




                   JUNE GIBBS BROWN
                    Inspector General

                        APRIL 1998
                      OEI-04-93-00270
                         OFFICE OF INSPECTOR                   GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                            Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI’s Atlanta Regional Office prepared this report under the direction of Jesse J. Flowers,
Regional Inspector General, and Christopher Koehler, Deputy Regional Inspector General.
Principal OEI staff included:

REGION                                                   HEADQUARTERS

Betty Apt, Project Leader 
                              Stuart Wright, Program Specialist
Jackie Watkins, Program Analyst 
                        Brian Ritchie, Technical Support
Joe Townsel, Program Analyst 
                           Barbara Tedesco, Statistician
Paula Bowker, Program Analyst 

Greg Jones, Program Analyst 

Jason Stanfield, Program Analyst 





        To obtain copies of this report, pleasecall the Atlanta Regional Office at (404) 562-7743.
          Reports are also available on the World Wide Web at our home page address:

                                  http :llwww. dhhs.gov/progorgloei
                    EXECUTIVE                          SUMMARY
PURPOSE

To describe services for and eligibility status of Medicare hospice beneficiaries.

BACKGROUND

Hospice is an approach to caring for a person who is diagnosed as terminally ill. Hospice services
are intended to provide comfort and relief from pain, as opposed to curative care. To elect
hospice care under Medicare, a beneficiary must be eligible for Part A Medicare. Beneficiaries
must also be certified by a physician as being terminally ill, with a life expectancy of 6 months or
less if an illness runs its normal course.

Medicare payments for hospice care are based on a capitated amount per day. In 1994, Medicare
hospice payments to 1,445 hospice agencies totaled over $1.3 billion. In 1995, 1,726 Medicare-
certified hospice agencies received $1.8 billion--a 38 percent increase in funding and a 19 percent
increase in agencies. Prior Office of Inspector General (OIG) studies indicated that some hospice
agencies may be enrolling beneficiaries who do not meet Medicare’s eligibility requirements at the
time they are enrolled in hospice.

FINDINGS

Hospice agencies seemed to plan for and provide appropriate services

The hospice agencies that treated the beneficiaries we sampled had developed formal plans of care
for 96 percent of the beneficiaries and 93 percent of beneficiary families. In 99 percent of the
patient records examined by our medical reviewer, the documentation showed that beneficiaries
and their families received services as indicated by the plans of care. Hospice services for both the
patient and their family were provided continuously, allowing agency personnel to remain close to
a beneficiary and the family on a regular basis throughout the entire course of treatment.

A significant portion of hospice patients in nursing homes were ineligible

We found a significant association between living in a nursing home and being ineligible for the
hospice benefit. Twenty-nine percent of sampled hospice beneficiaries in nursing homes were
ineligible. However, only 2 percent of beneficiaries not residing in nursing homes were ineligible.

Overall, 7 percent of beneficiaries in our sample were ineligible for hospice care, and 81 percent
were eligible. We could not determine eligibility for 12 percent of the beneficiaries.




                                                   i
CONCLUSION

Overall, the Medicare hospice program seems to be working as intended. However, recent OIG
work indicated problems regarding eligibility of beneficiaries in specific hospices and raised
questions more generally about hospice provided to nursing home beneficiaries. This study adds
to our concern about the Medicare hospice program in the nursing home setting. We have no
further recommendations to make at this time, but refer the reader to our other reports, which are
mentioned in the background section.

AGENCY     COMMENTS

The HCFA Administrator reviewed our draft report, and agreed that problems exist with the
hospice benefit provided to beneficiaries in nursing homes. She stated that HCFA staff are
currently studying the issues involved and working to identify appropriate ways to correct the
problems.

The President of the National Hospice Association (NHO) and the Executive Director of the
Hospice Association of America (HAA) also commented on our draft report. Both agreed with
our finding that, overall, the program seemed to be working well, but some problems exist with
hospice care in nursing home settings.

The NH0 President expressed concern about the study’s description of patients as being ineligible
when our reviewers and the patient’s attending physician differed in their medical opinions about
prognosis of death. He was also concerned that, as a result of continuing OIG scrutiny, hospice
services may be underutilized, and hospices may not be enrolling eligible beneficiaries. While we
recognize the difficulty of making prognosis of death, we believe that, overall, our study correctly
describes both the general success of hospices in service delivery and the program vuneralability in
the nursing home area. We certainly do not condone depriving any beneficiary of services to
which they are entitled.

The HAA Executive Director requested that we compare the findings of this report to previous
OIG audits. Previous OIG audits focused on specific providers. Such results cannot be used to
make national projections, and hence cannot be compared to those of our nationally
representative sample. However, all previous OIG work has noted special problems with hospice
care in nursing homes.




                                                 ii
                        ’ TABLE                            OF CONTENTS 



                                                                                                                 PAGE
EXECUTIVE         SUMMARY

INTRODUCTION               . . . . . . . . . . . . . . . . . . . .....................................                 1


FINDINGS        ...............                                          .....................................         4


 l   Services Seemed Appropriate                 .... ..... .            .....................................         4


         Plans of Care Were Made . . . . . . . . . .....................................                               4


         Services Were Consistent with Plans of Care .................................                                 4


         Services Were Continuous ..............................................                                     .4 


 @Ineligible Beneficiaries Likely to Reside in Nursing Homes ..........................                                4


CONCLUSION..             ...........................................................                                   .

AGENCYCOMMENTS                      ...................................................                           ...8 


APPENDICES

         Variances, Confidence Intervals, and 

           Chi-squarevalues ................................................                                     ..A- 1 


         Unweighted Numbers .................................................                                      B- 1 


         AgencyComments               .................................................                          ..C- 1 

                             INTRODUCTION 

PURPOSE

To describe services for and eligibility status of Medicare hospice beneficiaries.

BACKGROUND

Hospice Care

Hospice is an approach to caring for a person who is diagnosed as terminally ill. Hospice services
are intended to provide comfort and relief from pain, as opposed to curative care. Services are
usually rendered in a beneficiary’s home.

To elect hospice care under Medicare, a beneficiary must be eligible for Part A Medicare.
Beneficiaries must also be certified by a physician as being terminally ill, and have a life
expectancy of 6 months or less should a disease runs its normal course. A Medicare hospice
beneficiary waives the right to receive curative treatment for their terminal illness, and elects to
receive palliative care. A beneficiary selects a Medicare-approved hospice agency to provide
medical care and social services. The beneficiary signs a statement choosing hospice benefits in
lieu of fee-for-service Medicare benefits. Medicare payments for hospice care is based on a
capitated amount per day.

Services provided by hospice agencies include (1) physician services, (2) nursing care, (3) medical
appliances, (4) medical supplies, (5) drugs for symptom management and pain relief, (6) short-
term inpatient care, (7) home health aide and homemaker services, (8) physical and occupational
therapy (9) speech pathology services, (10) medical social services, (11) counseling, (12)
bereavement services, and (13) volunteer services. Interdisciplinary teams at hospice agencies
plan and monitor beneficiary plans of care. That team typically includes a physician, nurse, home
health aide, social worker, and a pastoral counselor.

In 1994, Medicare hospice payments to 1,445 hospice agencies totaled about $1.3 billion. In
1995, 1,726 Medicare-certified hospice agencies received $1.8 billion--a 38 percent increase in
funding and 19 percent increase in agencies.

Hospice Benefit Periods, Revocation, and Resumption

Hospice eligibility is divided into benefit periods. The first two benefit periods are go-days each.
Effective with the Medicare Hospice Benefit Amendments of 1997, signed into law on August 5,
1997, the first two benefit periods are followed by an unlimited number of 60-day periods. After
each benefit period, a hospice physician assessesa beneficiary’s condition to determine if hospice
care is still appropriate.




                                                   1

Beneficiaries can revoke their hospice benefits at any time, and return to curative treatment. A
hospice agency may discharge a beneficiary if they determine that a beneficiary’s condition has
stabilized or improved, and the eligibility criteria are no longer met.

Beneficiaries who leave hospice care, by their decision or an agency’s decision, and later wish to
return to hospice care are admitted into the benefit period following the one they were in at
revocation or discharge. For example, beneficiaries who leave in the second benefit period are
admitted into the third period if they return to hospice care.

Prior Office of Inspector General Work

In 1994, the Office of Inspector General (OIG) examined medical records of hospice beneficiaries
in Puerto Rico to determine eligibility for hospice. We found significantly high eligibility errors.
Based on this, the audit effort was expanded to in-depth audits of 12 selected large hospice
providers in the Continental United States who had higher than average numbers of long-term
patients. The audits found high ineligibility rates among the long-term patients. A
disproportionate number of these ineligible patients resided in nursing homes. Findings of those
audits are contained in a summary report (A-05-96-00023).

In conjunction with those targeted hospice reviews, additional OIG studies have been conducted
in an effort to obtain national data concerning the hospice benefit. One such study examined
eligibility, services, and growth in the number of hospice patients living in nursing homes (OEI-
05-95-00250). Another report examines contractual relationships between hospices and nursing
homes (OEI-05-95-0025 1). Both studies revealed problems related to hospice care in nursing
homes.

METHODOLOGY

Medical Review

We contracted with a medical consulting agency with hospice experience to review medical
records of 236 beneficiaries who were enrolled in hospice on June 14, 1996.

First, we used a stratified cluster sample to select 36 hospice agencies. We identified hospices
that were Medicare-certified before July 1, 1995. We eliminated hospices from our universe
where there was continuing OIG work. In selecting the 36 hospice agencies, we used six strata.
One stratum was created for each of the five Operation Restore Trust States’. The sixth stratum
contained all of the remaining States. From each stratum, we selected six hospice agencies.


   ‘In 1995 and 1996, ajoint initiative referred to as Operation RestoreTrust (ORT) was conductedbetweenOIG,
the Health Care Financing Administration (HCFA) and the Administration on Aging. Among its objectives,
Project ORT sought to identify vulnerabilities in the Medicare program and develop solutions that would reduce
Medicare’sexposureto fraud, abuseand waste. Project ORT targetedlive States(California, Florida, Illinois, New
York and Texas) that account for approximately 40 percent of Medicare expenditures and beneficiaries. ORT
projectsfocusedon home health care, nursing home care, durable medical equipment and hospice care.



                                                      2

We asked each of the 36 agencies in our sample for their enrollment roster for June 14, 1996,
which was a date approximately 2 weeks prior to our request. From those rosters, we randomly
selected the names of up to seven beneficiaries per agency. Some agencies did not have seven
beneficiaries enrolled on the specified day. In such instances, we selected all beneficiaries
enrolled. Cumulatively, we selected and collected copies of medical records for 243 selected
beneficiaries. All agencies responded to our request. However, one agency sent their seven
records too late to be reviewed by our medical contractor. Thus, our contractor reviewed a total
of 236 records.

The contractor’s registered nurses reviewed the 236 records for evidence of the existence of plans
of care, of services provided to beneficiaries and their families, continuity of care, and for
eligibility and appropriateness of services. The nurses referred 102 of the 236 records for the
contractor’s physician to review. Those were for beneficiaries that were either in nursing homes
or the reviewing nurses had questions about their eligibility.

The physicians examined the services provided, comparing them to the plans of care, and
reviewed the medical information to determine if patients were eligible for hospice benefits. To
determine eligibility for patients with non-cancer diseases, our contractor used guidelines
developed by the National Hospice Organization. The guidelines are to help hospice agencies
determine if a non-cancer illness has progressed to within 6 months of death.

We sent the medical records of beneficiaries that the contractor determined ineligible to Regional
Home Health Intermediaries @HI-I&) for a second medical opinion on hospice eligibility. RHHIs
process Medicare claims for hospice. In this report, we counted as ineligible only those cases
where the RHHI agreed with the medical contractor’s decision that the patient was ineligible.

All percentages in the report were properly weighted according to each hospice agency’s
proportion to the universe. Appendix A shows the variance, confidence intervals, and &i-square
values. Appendix B shows the unweighted numbers of beneficiaries.

Site Visits

We conducted site visits at 13 of the 36 randomly selected hospice agencies. The agencies were
chosen because of their location and ownership. We selected agencies in close proximity to
facilitate visiting as many as possible. We also selected a sample of both for-profit and not-for-
profit agencies. We visited agencies in each of the five ORT States.

During the site visits, we used a standardized questionnaire. We interviewed hospice directors
and other staff about operating practices, staffing, referral sources, and marketing strategies.



We conducted this inspection in accordance with the Quality Stanahds for Inspections issued by
the President’s Council on Integrity and Efficiency.




                                                 3

                                          FINDINGS 

HOSPICE AGENCIES             SEEMED TO PLAN FOR AND PROVIDE               APPROPRIATE
SERVICES

Hospices Made Plans of Care for Both Beneficiaries and Families

Our medical contractor found formal plans of care developed by the hospices for 96 percent of
the beneficiaries and 93 percent of the families.

Typically, when a patient enrolls in hospice, the hospice agency assigns a team of individuals to
provide care required by the terminal condition. After a preliminary examination of a patient by a
nurse, all members of the team meet to outline a plan of care to specifically meet the physical,
emotional, spiritual, and other needs that a patient or family may require.

Services Provided Were Consistent with Plans of Care

In 99 percent of the patient records reviewed by the contractor’s physician, there was
documentation that showed beneficiaries and their families received services as indicated by the
plans of care. The medical contractor’s review also showed that in 92 percent of all the sample
cases, there was documentation of a periodic re-evaluation of the patient’s plan of care by hospice
agencies’ multidisciplinary teams. In 6 1 percent of those cases, beneficiary needs did change. In
every case except one, the hospice team responded appropriately to the change. The medical
reviewers were unable to determine from the other record if the hospice team responded
appropriately to the change.

Most Services Were Provided on a Continuing Basis

Hospice regulations require that care to beneficiaries and their families be continuous, or
uninterrupted. This requirement recognizes the need for agency personnel to remain close to a
beneficiary and the family on a regular basis throughout the entire course of treatment. The
medical contractor’s review found that hospice agencies provided most services on a continuing
basis. However, some beneficiaries do not want all services offered by the hospice agency. For
example, a beneficiary who has his own minister may decline spiritual counseling.

A SIGNIFICANT   PORTION OF HOSPICE PATIENTS IN NURSING                        HOMES WERE
INELIGIBLE   FOR THE MEDICARE HOSPICE BENEFIT

We found a significant association between living in a nursing home and being ineligible for the
hospice benefit.2 Of the 19 beneficiaries found to be ineligible, 10 resided in nursing homes. Of
all sampled beneficiaries in nursing homes, 29 percent were ineligible. However, only 2 percent of



   ‘Appendix A contains details about statistical testsused.


                                                         4
beneficiaries not in nursing homes were ineligible. The chi-square test shows this difference to be
statistically significant. (See appendix A for the confidence intervals.)

Another OIG report (OEI-05-95-000250) discusses in more detail eligibility, services, and growth
in the number of hospice patients living in nursing homes. In that study, we found the eligibility
error rate for hospice patients in nursing homes to be 19 percent. The confidence intervals of that
estimate overlap those of this study, thus confirming a substantial error rate for those patients.

Our medical contractor’s physician reviewed records of all 39 beneficiaries in our sample who
were living in nursing homes. Table 1 shows the primary diagnosis of each of the 10 ineligible
beneficiaries living in a nursing home.


                                            Table 1
                    INELIGIBLE     BENEFICIARIES    IN NURSING           HOMES


                    Patient                      Primary Diagnosis

                       1	        Paget’s Disease
                                 (Chronic Inflammation of Bones)

                1      2          Senile Dementia
                       3         Prostate Cancer
                       4         Lung Cancer
                       5         Lung Cancer
                       6         Anemia. Dementia
                       7          Congestive Heart Failure
                       8         Heart Disease
                       9         Alzheimer
                       10         Cognitive Dementia


Patient records showed that, overall, 7 percent of beneficiaries were ineligible. Based on 2
different medical reviews, 19 patients, or 7 percent of the beneficiaries in our sample, were
ineligible. Our medical contractor found that 8 1 percent of the beneficiaries were eligible, i.e. had
terminal illnesses, and it was reasonable to expect they would die within 6 months. Eligibility for
the remaining 12 percent of the beneficiaries could not be determined because beneficiary records
did not have sufficient documentation to determine eligibility.




                                                    5

Directors of the hospices we visited said their patients are referred to them by hospitals,
physicians, and beneficiary family members. None of the hospices had sales staff, and the hospice
directors told us they do not solicit patients. To advertise their services, they have booths at
health fairs, and they visit or write hospitals and physicians--primarily oncologists.




                                                6

                               CONCLUSION

Overall, the Medicare hospice program seems to be working as intended. However, recent OIG
work indicated problems regarding eligibility of beneficiaries in specific hospices and raised
questions more generally about hospice provided to nursing home beneficiaries. This study adds
to our concern about the Medicare hospice program in the nursing home setting. We have no
further recommendations to make at this time, but refer the reader to our other reports, which are
mentioned in the background section.




                                                7

                      AGENCY                  COMMENTS
The HCFA Administrator reviewed our draft report, and agreed that problems exist with the
hospice benefit provided to beneficiaries in nursing homes. She stated that HCFA staff are
currently studying the issues involved and working to identify appropriate ways to correct the
problems.

The President of the National Hospice Association (NHO) and the Executive Director of the
Hospice Association of America (HAA) also commented on our draft report. Both agreed with
our finding that, overall, the program seemed to be working well, but some problems exist with
hospice care in nursing home settings.

The NH0 President expressed concern about the study’s description of patients as being ineligible
when our reviewers and the patient’s attending physician differed in their medical opinions about
prognosis of death. He was also concerned that, as a result of continuing OIG scrutiny, hospice
services may be underutilized, and hospices may not be enrolling eligible beneficiaries. While we
recognize the difftculty of making prognosis of death, we believe that, overall, our study correctly
describes both the general success of hospices in service delivery and the program vuneralability in
the nursing home area. We certainly do not condone depriving any beneficiary of services to
which they are entitled.

The HAA Executive Director requested that we compare the findings of this report to previous
OIG audits. Previous OIG audits focused on specific providers. Such results cannot be used to
make national projections, and hence cannot be compared to those of our nationally
representative sample. However, all previous OIG work has noted special problems with hospice
care in nursing homes.

We have made the technical changes suggested by HCFA, NHO, and HAA.           The full text of their
comments can be found in appendix C.




                                                 8

            APPENDIX        A





VARIANCE,    CONFIDENCE     INTERVALS 


     AND CHI-SQUARE       VALUES 





                 A-l
                       VARIANCE       AND CONFIDENCE         INTERVALS

The tables below contain estimates, corresponding standard error, and 90 percent confidence
intervals for the findings section of this report.

Hospices Made Plans of Care for Both Beneficiaries and Families


                                                         Standard        Boundaries for 90%
               &scription                 Estimate         Error         Confidence, jcnterv@s

  Formal Plans of Care developed for                       3.24      I          +I- 5.32%
  *
   Formal Plans of Care developed for                                           +I- 5.20%




ServicesProvided WereConsistent With Plans of Care


               Description                    Estimate
 Beneficiaries received services as       I   98.72%
 indicated in plan of care                I
 Documentation of periodic re-                92.09%                      ~       +I- 4.56%
 evaluation of nlan of care               I
 Beneficiary needs changed during             61.25%          4.99                +/- 8.21%
 hosnice care                             I




                                              A-2 

Most Services Were Provided on a Continuing Basis

 ‘0 Patients-­

     Description                  Estimate                     Standard Error      Boundaries for 9@% Confidence Intervals
                         Yes         No       UTD’       Yes        No     UTD*          Yes           No           UTD
 Nursing 
              94.87%    4.17%       .96%      3.02       3.29    1.04    +I- 4.97%       +/- 5.41%    +/- 1.71%
 Aide 
                 84.29%    6.99%       8.73%     8.39       4.48    4.40     +/- 13.80%     +I- 7.37%    +I- 7.24%
 Social Work 
          92.34%     5.69%      1.97%     2.91       3.30    1.33     +I- 4.79%      +-I- 5.43%   -+-I-2.19%
 Spiritual 
            83.27%    7.11%       9.62%     5.88       3.23    3.31     +I- 9.67%      +/- 5.3 1    +-I- 5.44%
 Grief Counseling 
     70.44%     10.82%     18.74%    3.27       5.54    5.45     +I- 5.38%      +/- 9.11%    +I- 8.97%



To Families-­
      Description                  Estimate                    Standard Error      Boundaries for 90% Confidence Intervals
                           Yes        No       UTD’       Yes        No     VP         Yes            NO            UTD

 Nursing 
               92.73%      4.88%    2.39%      2.78       3.22    1.53   +/- 4.57%     +I- 5.30%      +I- 2.52%
 Aide 
                  82.01%      8.78%    9.21%      8.29       4.57   4.40    +I- 13.64%    +I- 7.52%      +I- 7.24%
 Social Work 
           91.84%      5.99%    2.17%      2.86       3.31    1.40   +/- 4.70%     +I- 5.44%      +I- 2.30%
 Spiritual 
             83.29%      7.61%    9.09%      5.78       3.12   3.25    +/- 9.5 1%    +I- 5.13%      +I- 5.35%
 Grief Counseling 
      75.76%      9.03%     15.22%    4.35       5.24   4.88    +/- 7.16%     +I- 8.62%      +I-8.03%
 *Unable to Determine




                                                                   A-3 

Ineligibles Likely to Reside in Nursing Homes




 DescriDtion 
                Estimate          Standard   Boundaries for 90%
                                                Error      Confidence Interval


 Eligible 
                   80.89%            4.92             +/- 8.09%

 Ineligible - Overall 
       7.21%          3.81                +I- 6.27%
   - In Nursing Home         29.3 1%        9.93                 +I- 16.33%
   - Not in Nursing Home       2.01%         1.30                +/- 2.14%

 Could Not Be Determined      12.10%            2.47             +I- 4.06%




                                            A-4
                                    CHI-SQUARE         VALUES

We computed &i-square values to determine if there was a significant association between living
in a nursing home and being ineligible for the hospice benefit. The &i-square values in the table
below show that the association between living in a nursing home and ineligibility was significant
at the 92 percent confidence level.


I      ConfidenceLevel                Degrees of Freedom                  Chi-Square
              92%                               2                             5.42




                                               A-5 

                                            APPENDIX                           B

                   UNWEIGHTED               NUMBERS       AND WEIGHTED              PERCENTAGES

              Numbers and percentages are based on number of responses to each question.


          Description                                         Number of                                 Weighted Percent
                                                             Beneficiaries
-----------------------------------------     -------------------------------------------------------------------------

Formal Plans of Care

Beneficiary:
Yes                                                       233                                             96.51
 No                                                         2                                              4.39
Unable to Determine                                         0

Family:
 Yes                                                      223                                             93.46
 No                                                         5                                              5.50
Unable to Determine                                         2                                               1.03

Services Documented in Record3
Yes                                                        99                                             98.72
No                                                          1                                               .31
Unable to Determine                                         2                                               .97

Periodic Review Documented
Yes                                                        215                                            92.09
No                                                          11                                             7.02
Unable to Determine                                          3                                              .89

Change in Patient’s Needs
Yes                                                        137                                            61.25
No                                                          91                                            37.34
Unable to Determine                                          5                                             1.41




    This question was only askedabout casesthat went to the contractor’sphysician


                                                            B-l
         Description                                 Number of                                Weighted Percent
                                                    Beneficiaries
____________________----------------------------------------------------
 -----------------------------------------

Overall Eligibility of Beneficiaries 

Eligible 
                                              196                                           80.69
Ineligible 
                                             19                                            7.21
Unable to Determine 
                                   21                                            12.10




Beneficiaries in Nursing; Homes 

Eligible 
                                              23                                            45.21
Ineligible 
                                            10                                            29.3 1
Unable to Determine 
                                    6                                            25.48


Beneficiaries Not in Nursing; Homes 

Eligible 
                                              169                                           86.65
Ineligible 
                                              9                                            2.01
Unable to Determine 
                                    19                                           11.33




                                                          B-2
             APPENDIX        C





         AGENCY COMMENTS



. HCFA 


b National Hospice Organization 


b Hospice Association of America 





                    C-l
    DEPARTMENT      OF HEALTH   & HUMAN    SERVICES                      Health Care Financing   Administration



                                                                         The Administrator
                                                                         Washington,    D.C.   20201




                MAR231998
                                                  EN3
                                                  Et!
                                                  DIG-AS 

DATE:
                                                  DIG-Q
                                                  DIG-01 

                                                          ZE

                                                   DIG-EC 


TO: 	           June Gibbs Brown                  DIG-MI’ 

                                                  AIG-LC 

                Inspector General                 OGC2Id 

                                                  Ikccscc 

                                                  Dltcsull
FROM:           Administrator                                                                    _.
                Health Care Financing Administration 	                        . G
                                                                              --
                                                                              _. Cl
SUBJECT:        Office of Inspector General (OIG) Draft Report, “Medicare Hospice -’
                Beneficiaries: Servicesand Eligibility,” (OEI-O4-93-00270)


We reviewed the subject draft report on servicesand eligibility of Medicare hospice
beneficiaries. We recognize the problems with the Medicare hospicebenefit provided to
beneficiaries in nursing homesdiscussedin this and severalother OIG reports. The
Health Care Financing Administration (HCFA) is currently studying the issuesinvolved
and we are working to identify the most appropriate way to addresstheseconcerns.

We would like to take this opportunity to provide severaltechnical comments:

        In your report, you statethat 29 percent of all hospicebeneficiaries in nursing
        homes were in fact ineligible for the benefit. Basedon the discussionon page 6, it
        seemsyou found 29 percent of those hospice beneficiariesin nursing homes
        included in the study to be ineligible, as opposedto 29 percentof the entire
        Medicare hospice population residing in nursing homes. If this is the case,it is not
        clear in the Executive Summary. We would askthat you provide clarification of
        this statistic in the Executive Summary.

        Current Federal regulations at 42 CFR 418.3 define terminally ill as meaning that
        the individual has a medical prognosis that his or her life expectancyis 6 months
        or less should the illness run its normal course. Pleasemakethis clarification in
        the secondparagraphunder the section entitled, “Hospice Care” on page 1.

        Also,  page 1 of the report lists a minister astypically being a memberof the
        interdisciplinary team. We note that other types of counselorscan participate in
        the interdisciplinary team. Federalregulations, at 42 CFR 4 18.68,require that
                                                                                   2

      either a pastoral or other counselor be a memberof the interdisciplinary team.
      Pleaseclari& that either a pastoral or other counseloris required to participate on
      the interdisciplinary team.

0     On page 2, secondparagraph,pleaseadd the phrase,“or discharge.”# at the end of
      the first sentence.

Thank you for the opportunity to provide commentson this draft report.
                                                             January 29,1998

The Honorable June Gibbs Brown 

Inspector General 

Department of Health and Human Services 

330 Independence Ave., S.W., Room 5246 

Washington, DC 2020l-000 1 


Dear Inspector General Brown:

Thank you for the opportunity to review andrespondto a draft of the Office of the Inspector
&meral report, Medicare HospiceBeneficiaries: Servicesand Eligibility asdevelopedby the
OfTice of Evaluation and Inspections(OEI). We would also like to expressour appreciation
for the cooperativeefforts of OEI staffprovided our office during the developmentof this
report.
The National HospiceOrganization(NHO) is pleasedthat after almost four yearsof auditsand
evaluations of hospicecarein the LJnitedStatesthe Office of the InspectorGeneralhas
concluded that “Overall, the Medicarehospiceprogram seemsto be working asintended.”

NH0 is encouragedby the findings that suggestthat hospicesplan for andprovideappropriate
semi-, and was alsopleasedto seethe OIG reportthat the servicesprovidedby hospices
were consistentwith the plan of care,andthat hospicesrespondedappropriatelywhenthe
patient’s condition changed.
NH0 was also encouragedby findings showingthat hospiceserviceswereprovidedon a
continuing basis. Suchfindings suggestthat hospicesareestablishingcloseandongoing
relationships with patientsandfamilies which canbe critical to the transitionprocessthat
patients and ihmilies experiencewhen coping with term&l illness. This finding alsostrongly
suggeststhat hospicescontinueto provide appropriatelevelsof servicesregardlessof the
iinancial incentivesto providefewer or lessexpensiveservices.
The National HospiceOrganization,however,continuesto be distressedby theOK’s
          .
c-on             of patientsbeingineligible for the Medicarehospicebenefitwheredifferences
in medical opinion relatedto theprognosisof a patientexist betweenOIG reviewersandthe
patient’s attending physicianandhospicemedicaldirector. The well-regardedInstituteof
Medicine hasvery clearly warnedthe OIG not to draw conclusionsabouttheveracityof
hospice programsbasedon thesedifferencesof medical opinion
The National HospiceOrganimtion encouragesall hospiceprograms,thephysiciansworking
with them asmedical directorsandattendingphysiciansto establishthe mostaccurate
prognosis possible,and to not acceptpatientsinto the Medicarehospicebenefitwho&arly
have a prognosisof six monthsor more if theprognosisrunsits normal course.However,
NH0 will not, asadvocatesfor the needsof the terminally ill, encouragehospicesand
          National   Hospice   Organization,   1901 North Moore Street, Suite 901, Arlington,   VA 22209
                               7031243-5900     7031525-5762 fax hcrp://m.nho.org
 lhe HonorableJuneGibbs Brown
January29,1998
-Page2-


physiciansto aspireto a standardwherethey admit ody those@kd~ who they canbe 100
percentcertain will die within six months. To do sowill createanenvironmentin which tens
of thousandsof peoplewill be deniedfor daysandweeksthe caretheyrequireandareentitled
to asMedicare beneficiaries,andNH0 will resistattemptsto createsuchanenvironment
NH0 believesthat an unintentional wnsequenceof the OIG’s intensescrutinyof hospices
overthe past few years,togetherwith anever-changingand chaotic healthcareenvironment
hasresulti in an undemtihzation of hospicecare. As such, Wminally ill Medicare
beneficiariesarenot receiving the hospiceservicesthey needandareentitledto aswell as
increasingcoststo the Medicare Trust Fund NH0 wasdisappointedthatthe OIG report did
not usethis opportunity to commenton the underutilizationof hospicecareand its harmful
impact on beneficiariesandthe Trust Fund As notedin the report: ‘Yhe mission of the
OfEm of the hqector General,asmandatedby Public Law 95-452,is to protectthe integri~
of the Departmentof Health andHuman Se&ces programsaswell asthehealth andwelfare
of beneficiariesservedby them.” Surely,this mandatemustextendto as&stingbeneficiaries
to identify andreceivethe servicesthey need,becauseto do otherwiseonly servesto diminish
their health and welfare.
NH0 recommendsthat the industry, the OIG andHCFA work togetherto determinea
methodology for identifying truly aberrantbehavioron the part of hospicesandphysiciansin
establishingeligibility for the Medicarehospicebenefit,andto vigorouslypursueany
wrongdoers. In this way, the important goalof ferretingout fraud,ahuseandwastein the
Medicare systemcanbe achieved,but the concernraisedby the OIG canbemore correctly
focusedon thosethat would abusethe systemratherthanon dif%rencesin medical opinion.
The National HospiceOrganizationalsOmakesthe following specificcomments:
    As noted,NH0 is generallyencornagedby the report’sfindings;however,it must be
    statedthat while the finclingsmay be representativeof thepopulation,the readerof this
    and ~IGOUS OIG reportsshouldbe cautionedto resistacceptingthefindings of thesevery
    limited studiesasa perfidy accumteportrayalof the hospicecommunityandexpending
    the conclusionsof thesereportsto a broaderpopulationshouldhedonewith an
    understandingof thoselimitations.

    In the ExecutiveSummaryunder“Background” the statementshouldreflect that
    “Beneficiaries must alsobe certified by a physicianasbeingterminauyill, andhavea life
    expectancyof 6 months or lessifthe diseaserunsits normalcourse.”
    In the Imoduction sectionunder Servicesprovided...volunteersshouldbe addedasa
    covefed senice. Number (11) shouldbe changed to “counseling”asdietary wmsding is
The Honorable JuneGibbs Brown 

January29,1998 

-Page3-



     only one of the requiredcounselingservices. The team typically includesa “pastoral
     counselor” ratherthan a ‘Snister.”
l	   The statementis maderegardingthe growth of hospicecarein a mannerthat leavesthe
     impression that suchgrowth is not appropriate. On the contmry,suchgrowth is not only
     appropriate,it shouldbe expectedin a still emergingbenefitprogram. According to
     HCFA datathe increasein expendituresrelatedto this programarebeing drivenprimarily
     by the increasein patientsserved,not by increasedcostperpatient. Additionally, this
     report suggeststhat hospicepatientsaregenerallyeligible for the benefitsthey are
     receiving andthat hospicesdeliver the servicesthey areobligatedto provide..
l	   In the sameintroductory sectionof the reportthe statementis madethat a hospiceagency
     can also revokecareby determiningthat a beneficiary’s condition stabilizesor improves,
     and hospicecareis no longer appropriate. This statementis not altogetheraccurate.The
     hospicemay dischargea patient tirn the Medicarehospicebenefit if eligibility criteriaare
     no longer met.
l	   Table 1 of the report identifies theten ineligible beneficiariesliving in nursinghomes,and
     their primary diagnoses.From the report’s findings we areunableto detexmineif
     comorbidities were consideredwhen the medical contractorde&mined prognosis. The
     absenceof considerationof theseadditional factorscould havean impact on final
     determinationsof prognosis.
l	   The final pamgraphof the report on page8 states:‘None of the hospiceshadsalesstaff,
     and the hospicedirectorstold usthey do not solicit patients. To advertisetheir services,
     they haveboothsat healthfairs, andthey visit or write hospitalsandphysici­
     primarily oncologists.” NH0 would objectto this statementifit is meantto imply thata
     “good hospice” is onethat limits servicesto patientswith canceror doesnot makeall
     reasonableand appropriateefforts to respondto its community’s needfor accessto
     hospicecare.
Respondingto issuesraisedby previousOIG reports,NH0 hastakenthe following actionsto
improve the delivery of hospicecare:
0 	 In the absenceof a governmentor medical community initiative NH0 hasspent
    significant resourcesdevelopingguidelinesfor establishingterminal prognosesto
    encouragethe referralof patientsto hospicecare,and to provideattendingphysiciansand
    hospicephysiciansthe tools to increasetheir certainty that only appropriatepatientsare
    admitted to hospicecare.
The HonorableJuneGibbs Brown 

January29,1998 

-Page4-



   NH0 hasalso spentconsiderableresourcesandalmosta decadein an effort to improve
   the quality of hospicecareprovided in the nursinghome,andto improvethe relationship
   betweenthe hospiceand the nursinghomewhile r&imZng thepotential for abusive
   behavior. Theseefforts havebeenmadewith minimal governmentassistanceto clarify
   the rulesgoveming theserelationships.
   NH0 hasestablishedaNursing Home TaskForcethatcontinuesto identify problemsand
   solutionsto this complex issue.

   Despiteour di&rences, NH0 hasworked closelywith theOIG to identify problemsand
   to communicatetheseissuesto hospices.
   NH0 is alsoworking closely with HCFA to developnew MedicareConditionsof
   Participation,including new provisionsconcerninghospicecareprovidedin the nursing
   home. We haveworked with HCFA andthe RegionalHomeHealthIntem~~Earieson
   focusedmedical review, andwe arealsoworking with theRHHI Medical Directorsto
   design‘Local Medical Review Policies.”

   NH0 is working with HCFA to developnew costreportsfor hospices,andwe arehopefbl
   that thesenew tools will assistthe hospicecommunity andthe governmentin making
   soundpolicy decisionsaboutthe ti       of the Medicarehospicebenefit,
NH0 thanksyou for your considerationof our comments,andwe look forward to working
with your office in the finthemnceof our commongoals.
228SevcnthScnxt,SE
     was&ton,    DC
          moo3-4306     February lo,1998 

       (202B46-4759
   Fax 002B47-9559      The Honorable June Gibbs Brown 

                        Inspector General 

 R--YJ.    H­           Department of Health and Human Services 

                a?air   330 Independence Ave., SW 

     Diam H. Jones      Room 5246 

    -Dirwctor           Washington, DC 2020 l-0001 


                        Dear Inspector General Brown: 


                        The Hospice Association of America would like to thank you for the opportunity to 

                        comment on the draft report, “Medicare Hospice Beneficiaries: Services and‘Eligibility.” 

                        We appreciate the positive tone of the report and believe that it is a fair reflection of the 

                        hospice industry. We concur that hospices are doing a good job. We also appreciate what 

                        appears to be a growing understanding by the Office of the Inspector General (OIG) of 

                        the unique constellation of hospice services and how they are delivered; the need to have         .

                        these services audited by experienced and skilled hospice professionals; and the 

                        advisability of selecting and auditing patient records with tools that had been developed 

                        and are being used by the industry. 


                        INTRODUCTION 

                        Overall, this draft inspection report accurately describes what we believe to be true about 

                        the hospice industry: the “error rate” for determining eligibility for the Medicare hospice 

                        benefit is low; hospice agencies plan for and provide appropriate services; and there are 

                        problems with the eligibility of hospice patients residing in nursing homes. We commend 

                        the OIG for its perseverance in improving the methodology for conducting hospice 

                        audits. The industry looks forward to working together with OIG in the development of a 

                        model hospice corporate compliance plan that will hopefully eliminate the need for 

                        future audits such as ORT. Our comments will focus on the conclusions drawn by this 

                        draft report in comparison to previous reports issued by OIG since the reader is referred 

                        to those reports for recommendations. 

The Honorable June Gibbs Brown 

February lo,1998 


Page 2 


REVIEW OF HOSPICE INDUSTRY RESPONSE TO FRAUD, WASTE, AND ABUSE 

The examination of hospices began in 1994 in Puerto Rico and soon expanded into focused medical 

review (FMR) by the Regional Home Health Intermediaries @HI-II), followed by Operation Restore 

Trust (ORT), a joint initiative of OIG, the Health Care Financing Administration (HCFA), and the 

Administration on Aging. Throughout this period of time the hospice industry responded quickly and 

vigorously by emphasizing policies of zero tolerance for fraud, abuse, and waste; developing and 

expanding a set of medical guidelines for non-cancer diagnoses (Medical Guidelinesfor 

Determining Prognosesin SelectedNon-CancerDiseases);providing national, regional, and local 

educational programming; and working in cooperation with OIG, HCFA, RHHIs, and state 

surveyors. At the present time RHHIs are in the process of implementing hospice local medical 

review policies (LMRP), which were developed by HCFA and based on the industry’s Medical 

Guidelines. The purpose of the LMRP is to assist RHHIs in claims review as well as provide 

guidance for hospice programs in appropriately enrolling and recertifying patients. In addition the 

two national organizations representing hospice providers, HAA and the National Hospice 

Organization (NHO) are developing a model hospice corporate compliance plan (CCP) in 

conjunction with OIG. 


COMMENTS 

Auditing of hospices under ORT began in early 1995 and examined medical records between the 

period January 1993 and the first quarter of 1996. Problems of hospice programs identified in earlier 

reports included: determining eligibility for enrollment in the Medicare hospice benefit; nursing 

home patients receiving hospice services; marketing strategies; and weak internal controls in the 

areas of physician certifications, claims processing, and medical and cap report reviews at the RI-W. 

There were specific recommendations addressing these identified problems, including: 

*.         Reinforcing the six-month prognosis requirement; 

-.         Prohibiting hospices from paying nursing homes more for room and board than the hospices 

           receive from Medicaid;
-.         Ensuring that hospice marketing materials prominently feature Medicare eligibility
           requirements; monitoring the use of sales commissions as incentives for patient recruiting;
-.         Requiring physician certification forms contain a statement concerning the penalties for false
           claims;
-.         Requiring RHl-lls to place more focus on front-end reviews and nontraditional, suspect, or
           exceedingly vague diagnoses;
-.         Seeking legislative change to the hospice cap; requiring RHHIs to establish audit procedures
           for cap reports; and
-.         Seeking legislative amendment to change the reimbursement for dually eligible hospice
           nursing home patients.
This draft report, “Medicare Hospice Beneficiaries: Services and Eligibility,” which reviewed
medical records of beneficiaries who were enrolled in hospice on June 14,1996, reflects an apparent         ,

increased sophistication on the part of hospices in terms of enrollment practices, documentation, and
provision of services. It would be helpful for the report to comment on the earlier concern of high
eligibility errors for hospice patients not living in nursing homes and if OIG believes this continues
to be problematic.
The Honorable June Gibbs Brown 

February 10,199s 


Page 3 


An analysis of the difference in eligibility errors between the reports would help direct future 

activities regarding OK recommendations that would: require HCFA to reinforce the six-month 

prognosis; modify physician certification forms; require RHHIs to place more focus on front-end 

reviews and nontraditional, suspect, or exceedingly vague diagnoses; and seek legislative changes 

for the hospice cap amount. These recommendations may no longer be appropriate given the 

operational improvements within the hospice industry. 


The report indicates that all of the hospice patients and their families, including patients residing in 

nursing homes, had formal plans of care and received appropriate services, all of which were 

appropriately documented in the patient’s medical record. It would be helpful for the report to 

comment on the differences between the results of this audit and earlier ones, particularly in light of 

an OIG recommendation to seek a legislative amendment to reduce the payment for dually eligible 

hospice patients residing in nursing homes. 


The report does corroborate the problems previously identified with nursing home residents enrolled 

in hospice programs as they relate to eligibility errors. Reinforcing the recommendations regarding 

marketing materials and prohibiting the practice of paying nursing facilities more for room and 

board than hospices receive from Medicaid would seem to be appropriate actions to combat this 

problem. As an alternative to prohibiting excessive payments for room and board, we recommend 

that federal statute be changed to require Medicaid room and board payments be made directly to the 

nursing facility rather than passing through the hospice. 


CONCLUSION 

HAA, along with the hospice industry, commends OIG for the work it has done in helping eliminate           ’

fraud, waste, and abuse from Medicare and Medicaid programs. We are particularly pleased that this 

report helps to “set the record straight” and paints a more realistic picture of what hospice looks like 

in the US. Regarding concerns about hospice services provided in nursing homes, we reiterate what 

we have said in previous correspondence with OIG: hospice services should not be denied to eligible 

nursing home residents, regardless of income status. We do support the idea of further study and 

analysis for the development of a reimbursement formula that accurately reflects the costs of hospice 

services provided to hospice patients residing in nursing homes. 


HAA is committed to establishing a national hospice financial data base.To this end we conducted a 

pilot study in 1997 using HAA’s HospiceFinancial RecordKeepingManual, which is a hospice cost 

report that has been distributed to several hundred hospices around the country. We are now 

preparing to launch the second study in mid-l 998. The number of participating hospices will be 

increased, and the cost report will be updated to allow hospices to track their nursing home program 

costs. This tool will give hospices the ability to compare their nursing home costs with home-based 

costs within their own programs as well as benchmark with national data. We believe that this 

information will help hospices ensure that they are providing appropriate services across all sites of 

care, including services provided to hospice patients residing in nursing facilities. 


On another, more global note, we would like to comment on the statutory requirement for a six-

month prognosis. 

                                               -+T      iK\
                                                        1 *

                                           v         . 1’
The Honorable June Gibbs Brown
February lo,1998

Page 4

The hospice industry, along with hundreds of other interested organizations, foundations, and
individuals, are committed to continuing the quest of improving care at the end of life. The Medicare
hospice benefit by statute can only provide services for those who have a certifiable prognosis of six
months or less, which in reality translates to the last few days or weeks of life. Hospice care is
therefore a relatively small part of the continuum of care required by seriously ill people to ensure
that the last chapter of their lives is free from pain and can be lived to its fullest.

The latest HCFA statistics report the national average length of stay for a Medicare beneficiary has
dropped and is now under 54 days. Our experience of the last few years tells us that the “art” and
“science” of prognostication are not exact and prone to a high rate of error. It would seem to be
unwise and even inhumane to support a system that focuses on error-free prognoses of six months or
less to allow access to the holistic, patient and family-centered care hospice provides. We are
striving to find a better indicator to trigger hospice care and at the same time find ways to work with
other providers so that those in need of end-of-life care will not be lost. We will also continue to
educate hospices about the law as it exists today, encourage the implementation of CCPs, and work
to eliminate fraud, waste, and abuse.

Thank you again for allowing HAA to comment on this draft report. We look forward to continuing
our work with your offtce.


sinYy&&               u    ‘;3u-w-
Diane H. Jones
Executive Director

DHJ:lj

cc: 	    George F. Grob
         Deputy Inspector General
         Offtce of Evaluations and Inspections
